  FEDERAL ELECTION COMMISSION 


   OFFICE OF INSPECTOR GENERAL 





           FINAL REPORT 


    AUDIT OF THE COMMISSION’S 

EMPLOYEE TRANSIT BENEFIT PROGRAM 





              February 2007 

       AUDIT ASSIGNMENT OIG-06-01

               OFFICE OF INSPECTOR GENERAL 

                                    TABLE OF CONTENTS



DESCRIPTION                                                                                 PAGE

Executive Summary-----------------------------------------------------------------------------1

Background---------------------------------------------------------------------------------------3

Objectives, Scope and Methodology----------------------------------------------------------8

Audit Findings and Recommendations

        Program Policy Needs Improvement------------------------------------------------10

        Employees Did Not Comply With Program Policy-------------------------------12

        Program’s Internal Controls Need to Be Strengthened---------------------------16

        Other Matters to Be Reported--------------------------------------------------------22

Conclusions--------------------------------------------------------------------------------------24

Management’s Comments---------------------------------------------------------------------24

Appendix 1:      FEC Transit Subsidy Program Application-------------------------------25

Appendix 2:      FEC Employee Clearance Form--------------------------------------------27

Appendix 3:      Summary of Audit Findings and Recommendations--------------------29
                         EXECUTIVE SUMMARY 


The Federal Election Commission (FEC) Office of Inspector General (OIG) initiated an audit
of the FEC’s Employee Transit Benefit Program in response to a 2005 OIG hotline complaint
alleging that some participants received transit benefits while on extended business travel, a
violation of FEC policy. The FEC’s Employee Transit Benefit Program is a subsidy intended
to encourage employees to commute to and from work by means other than single-occupant
vehicles. The employee benefit program had not been reviewed since 1994 and considering
the cash equivalent nature of the program benefits, the OIG believed that an audit of the
program would be beneficial.

The OIG conducted the audit with the objectives of assessing program policies and operating
procedures for compliance with applicable regulations, verifying employee compliance with
program participation requirements, and ensuring that the appropriate internal controls are in
place. The audit fieldwork was conducted between February 2006 and November 2006. The
audit scope included a review of program activity from January 2003 through July 2006.

FEC Directive 54, Employee Transit Benefit Program, August 2001, requires employees to
reduce their monthly transit benefit when they do not take public transportation for the
majority of the month. The OIG’s audit substantiated the OIG hotline complaint allegation
that some employees were not adhering to the program directive. In fact, 50 employees
inappropriately claimed $2,494 in transit benefits of which they were not entitled given their
extended absence from the FEC. According to the program directive, it is the employee’s
responsibility to reduce the transit benefit received in the event of an extended absence from
work. Clear program policies and procedures need to be developed to provide participants
with specific instructions on how adjustments should be made.

Furthermore, we discovered three employees who were allowed to inappropriately participate
in both the transit benefit program and the subsidized parking program. The three employees
had been issued an FEC paid parking permit and also received the transit subsidy for several
months during the period reviewed. In fact, two of the three employees worked in one of the
program offices responsible for administering the Employee Transit Benefit Program.
Although the practice was not consistent with the program directive, the OIG found no
evidence of misuse of the benefit by the three employees.

The OIG concluded the FEC’s Employee Transit Benefit Program policy is compliant with
the intent of Federal regulations, to encourage employees commute on mass transit.
However, the current directive needs to be improved since the policy does not include
guidelines for proper management of SmartBenefits. Moreover, we noted that the FEC does
not have written operating procedures to effectively implement program policy, program
staff did not always follow the provisions of the program’s policy and program
documentation was not properly maintained.
Additionally, the OIG found the program office failed to properly suspend and remove
program participants upon separation from the agency. As a result, former employees no
longer eligible for the benefit had access to $30,935 in FEC funds, of which $1,972 (rounded
to the nearest dollar) was inappropriately claimed by former employees. Further, while
reviewing employee separations, the OIG also identified three ineligible employees who
claimed $527 in transit subsidies while on administrative leave. The OIG also identified
several employees who separated from the agency, but failed to return $2,101 of unused
transit benefits.

The program’s internal control system needs strengthening to ensure that unused subsidies
are returned by separating employees, former employees are promptly removed from the list
of eligible transit subsidy recipients and that ineligible persons do not have access to FEC
transit benefits. As a result of these conditions, the program was not effectively monitored
thereby providing opportunity for fraud, waste and abuse of program funds. Considering this,
we have made several recommendations for improvement to the management of the program.




                                                                                           2
                                 BACKGROUND 

The Federal Election Commission’s (FEC) Employee Transit Benefit Program was
established in April 1992 to encourage employees to commute to and from work by means
other than single-occupant vehicles. To achieve this, the Employee Transit Benefit Program
provides financial incentives to employees who regularly commute via public transportation,
not to exceed the lesser of the Federal tax-excludable amount or the actual commute cost. In
1992, the program had 164 enrolled participants and provided a transit subsidy in the form of
either a Metrofare card or a bag of bus tokens, with a value of $23.10 and $23.00,
respectively. Since the inception of the FEC’s program, Executive Order 13150, “Federal
Workforce Transportation,” was issued in April 2000 and mandated all Federal agencies in
the national capital region (Washington, D.C.) to implement a transit pass benefit program by
October 2000. As of 2005, the Federal tax-excludable amount for transit subsidy increased
to $105 per month for transit/vanpool benefits.

According to FEC Directive 54, Employee Transit Benefit Program, August 2001, any
person on a full-time or part-time work schedule who is listed on the FEC payroll is eligible
to participate in the transit benefit program. To apply, employees must complete the FEC
Transit Subsidy Program Application (Appendix 1) and submit it to the Human Resources
Office. Once approved, employees remain eligible until they leave the employment of the
FEC or their commuting pattern changes in such a manner as to make them no longer
eligible. As of March 27, 2006, 327 employees were enrolled and approved to receive a total
of $29,786 in monthly transit subsidy.

In the national capital region, the Washington Metropolitan Area Transit Authority
(WMATA or Metro) directs the Metrochek and SmartBenefits programs. Employees who
commute to work on WMATA-specified forms of transportation have the option of receiving
their approved monthly transit benefit by paper Metrocheks or via SmartBenefits. Unlike
paper Metrocheks which are manually distributed by the FEC monthly, SmartBenefits allow
the FEC to electronically distribute transit benefits in a secure online environment. In fact,
SmartBenefits makes it more effective to manage transit benefits; a web-based program
allows the FEC to load the dollar value of an employee’s transit benefit directly to a
SmarTrip card.


The SmarTrip Card
The SmarTrip card is a permanent plastic farecard
registered with Metro at the time of purchase. The
SmarTrip card can hold a maximum balance of $300 and
is currently used for metrorail, metrobus and participating
vanpool services. SmarTrip is also the only way to pay
for parking at Metro parking lots. The unique serial
number located on the back of the SmarTrip card protects




                                                                                             3
the card value assigned to the card and is used by the FEC to direct transit benefits. The
employee retrieves funds by swiping the SmarTrip card at specified kiosks located
throughout the WMATA system.

Use of the SmarTrip card benefits the employee by saving time spent visiting the FEC’s
Finance Office to receive the monthly benefit, provides the employee a way to recoup losses
if the card is lost or stolen and gives the employee the ability to consolidate all transit benefit
funding in one place, including adding money of their own, up to the card’s maximum funds
capacity. Employees who do not download the monthly benefit to their SmarTrip card by the
last day of the benefit month lose that month’s funding, which will automatically revert to the
agency as a credit posted on a future WMATA invoice which is applied to a future purchase.

Employees who choose not to use the SmarTrip card or who commute to work on any form
of transportation that does not accept SmarTrip, have the option of receiving their approved
monthly transit benefit by Metrochek paper fare. Participants must go to the Finance Office
each month to sign for and obtain their monthly benefit in Metrocheks. Annually,
participants are provided a schedule of Metrochek distribution days. In addition, employees
are reminded by e-mail of the upcoming distribution each month on the day before the
beginning of the distribution of the next month’s subsidy. The Finance Office distributes
Metrocheks generally on the last Thursday and Friday of the month and the following
Monday. Additional distribution days are the next Monday through Friday after the initial
three-day period.

Employee Transit Benefit Program Costs

Transit subsidy disbursements averaged $27,673 per month from January 2003 through
December 2005. These disbursements resulted in annual costs of $247,467, $306,616, and
$343,481 to the FEC for calendar years 2003, 2004, and 2005 respectively.

                               Annual Expenditures for Transit Subsidy


                    400,000
                    300,000
             Dollars 200,000
                    100,000
                          0
                                    2003              2004               2005




                                                                                                 4
Program Administration at the FEC

At the FEC, the Employee Transit Benefit Program is administered by three offices: the
Administrative Division, the Human Resources and Labor Relations Office (HRO), and the
Finance Office.

The Administrative Division is responsible for the procurement of all Metrocheks for direct
delivery to the Finance Office. As required by the program policy directive, the
Administrative Division must also maintain and provide to HRO a monthly list of employees
issued FEC parking permits, including a list of passengers who commute with the parking
permit holders. Employees who participate in an FEC carpool or are issued an FEC parking
permit are not eligible for the transit subsidy program.

HRO is responsible for processing, approving, and maintaining the Transit Subsidy Program
Participant Applications as well as maintaining a database of eligible program participants
generated in the agency automated accounting system. Monthly, HRO prepares the Transit
Subsidy Eligibility List used to distribute paper Metrocheks to eligible recipients. HRO is
also charged with reviewing the monthly list of FEC parking permit holders and their
passengers prepared by the Administrative Division to ensure that employees who receive an
FEC parking benefit are not eligible for the transit subsidy.

Establishing and maintaining the SmartBenefits (SmarTrip) accounts for those participants
who receive their benefit electronically is another responsibility of HRO. Using WMATA’s
web-based program, HRO staff can add, delete, modify, and edit information contained on
the SmartBenefits database from the 1st through the 15th of each month. After the 15th of
each month, SmartBenefits orders for the upcoming month are processed by WMATA.
Since the FEC’s monthly SmarTrip order generates a permanent reoccurring record in
Metro’s database, any changes due to employee separations should be processed in a timely
manner by the 15th of each month. After the 15th of the month, changes in the SmarTrip
order can not be made. However, the SmartBenefits program allows HRO to suspend usage
of FEC transit benefits unclaimed during the last month of employment. For employees who
depart after the 15th of the month, HRO staff can also suspend FEC paid transit subsidy for
the upcoming month on the 28th or after to prevent the electronic transfer of additional
subsidy to their SmarTrip card.

The Finance Office is responsible for determining the monthly order quantity of Metrocheks,
certifying payment of WMATA invoices, as well as the safeguarding and distribution of
Metrocheks. Additionally, the Finance Office maintains monthly distribution records and is
required to collect any unused Metrocheks during the employee separation clearance process.




                                                                                          5
Prior Audit Coverage of Employee Transit Benefit Program

A prior OIG audit of the Employee Transit Benefit Program conducted in 1994 found that the
program complied with statutory requirements and successfully achieved the intent of the
program. The OIG also concluded that the internal controls were sufficient to prevent fraud,
waste, or abuse. The prior audit revealed only a few minor weaknesses which did not
warrant a formal finding. Since the OIG’s 1994 audit, significant changes have occurred to
the FEC benefit program. The number of employees participating in the program nearly
doubled, the maximum monthly benefit more than quadrupled, and the FEC introduced the
new electronic SmarTrip card.

Program Violations Noted Since Prior Audit of the Employee Transit Benefit
Program

As part of the OIG’s audit planning, the OIG requested information from the FEC on any
program violations related to the transit program since the OIG’s last audit of the program.
The OIG received records documenting program violations regarding a case in 2000.
According to the records, the U.S. Attorney’s Office for the District of Columbia declined to
criminally investigate the 2000 matter and referred the issue to the FEC for administrative
action. The program violations involved three program recipients who received benefits, but
participated in a private carpool that received an FEC parking benefit.

According to the documentation obtained by the OIG during the audit, the driver of the
carpool used a FEC paid parking permit. The three riders continued to ride with the driver
and receive transit benefits. Program policy states that parking permit holders and their
passengers who participate in an FEC carpool will not be eligible for the transit subsidy
program. The three employees claimed that they were unaware of the FEC’s policy
regarding parking permits and the transit benefits. The three employees were required to
repay the transit benefits received while riding in the carpool, and adhere to the program’s
participation requirements of the Employee Transit Benefit Program for the remaining period
of their enrollment. The former Deputy Staff Director also restricted one of the employee’s
access to a computer system as a result of the violation; the employee’s computer access was
reinstated six months after a resolution agreement was signed. Additionally, since the
employees successfully complied with the conditions of the resolution, no record of the
incident was included in their Official Personnel Folder.

It appears that the misuse of transit benefits by the three carpool members occurred because
the FEC did not fully implement the program’s internal controls. The FEC’s program
directive requires that the Administrative Office maintain a current list of employees who
have been issued FEC parking permits, including passengers who commute with the parking
permit holder. The policy also requires that HRO compare the list of parking permit holders
and their passengers to the Transit Subsidy Eligibility List to ensure that ineligible employees
are not on the transit subsidy list. However, there was no record that this was done.




                                                                                              6
Prior to the OIG’s audit, FEC management did not provide the FEC OIG with any
information regarding the allegations of possible misuse within the agency’s Employee
Transit Benefit Program. Nor was the FEC OIG contacted or approached by management to
conduct/assist with the investigation. Subsequent to the matter, the Director of Personnel at
the time suggested the OIG consider a future audit of the transit benefit program to ensure
employees’ actual commute costs match their transit benefits. The Director of Personnel
made no mention regarding the prior misuse or the need to assess the program’s internal
controls to ensure the weakness that allowed the misuse to occur had been improved. In fact,
the OIG’s 2006 audit found that management did not implement corrective action to address
the internal control issues previously noted in 2000.

In 2005, a hotline complaint was submitted to the FEC OIG alleging that some participants
received transit benefits while on extended business travel, a violation of program policy.
The complainant believed that one or more FEC employees claimed their full transit benefit
while conducting extended out-of-town work assignments. Participants of the program who
do not commute to their normal duty station (i.e. the FEC building located at 999 E Street,
NW, Washington, D.C.) on a regular and reoccurring basis are not eligible to receive the full
monthly subsidy amount. FEC policy requires participants to adjust their monthly subsidy
amount when they vary their monthly commute to their official duty station. Employees
must commute a minimum of 50% of the available number of commuting days (business
days) per month between home and the official duty station on public transportation to be
entitled to their full monthly transit subsidy. Employees who do not commute a minimum of
50% in a month are only entitled to 50% of their full transit benefit for that month.




                                                                                            7
       OBJECTIVES, SCOPE AND METHODOLOGY 

The objectives of this audit were to: 1) assess program policies and operating procedures for
compliance with applicable regulations; 2) verify employee compliance with program
participation requirements; and 3) ensure that the appropriate internal controls are in place.
The audit fieldwork was conducted between February and November 2006. The audit scope
included a review of program activity from January 2003 through July 2006.

We conducted our audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States.

To accomplish the audit objectives, we performed the following audit procedures:

   •	 Compared Federal regulations authorizing the transit benefit program to the FEC
      Directive and current procedures to ensure that the program is consistent with the
      intentions of Federal regulations. The OIG also reviewed and compared current
      program policy to the policy in effect during the OIG’s 1994 audit to identify changes
      to the benefit program.

   •	 Conducted interviews with program staff in order to: verify policies are consistently
      followed; understand internal operating procedures; and to document any program
      violations noted since the OIG’s prior audit conducted in 1994.

   •	 For the sample of 45 participants, compared the participants’ claimed commuting
      costs to reasonable costs associated with the commuting options available based on
      their home address to ensure that the transit benefits paid by the FEC were
      appropriate. The OIG concluded that the commuting costs claimed by the 45
      participants were reasonable.

   •	 The OIG reviewed the transit benefit claiming reports to determine whether the
      randomly selected sample of 45 participants received their transit benefits in the first
      full calendar month after their application had been approved. We found that the
      sampled participants received their transit benefits in a timely manner.

   •	 The OIG reviewed the monthly WMATA invoices for SmartBenefits from January
      2005 to June 2006 to ensure the FEC was properly credited for unclaimed benefits.
      We found that the FEC was properly credited for unclaimed benefits during the
      period reviewed.

   •	 To evaluate whether employees adjusted their monthly benefit given actual leave
      usage, the OIG selected the FEC’s Office of General Counsel (OGC) for review, an
      office comprised of approximately 30 percent of the total FEC staff. The OIG
      reviewed calendar years 2003-2005 Annual Attendance Records for OGC employees,
      calculated the benefit amount the employees were entitled to receive and then
      examined transit subsidy claiming reports. [See page 13]



                                                                                                 8
•	 The OIG selected a sample of 59 extended business trips (10 business days or more)
   by FEC staff taken between January 2003 and December 2005 to determine whether
   program participants correctly adjusted their monthly benefits due to business travel.
   For each business trip sampled, the OIG determined the number of days the
   participants commuted to work based on business trip length and any leave taken in a
   given month. [See page 13]

•	 Analyzed monthly transit subsidy claiming reports from January 2003 through July
   2006 to determine whether employees placed on administrative leave claimed transit
   benefits for the period of absence from the FEC. [See page 14]

•	 Reviewed all employee separations from January 2003 through July 22, 2006 to
   ensure that departed staff returned unused transit benefits during the clearance
   process, their names were promptly removed from the transit subsidy
   distribution/claiming lists and former employees did not claim benefits after
   separating from the agency. [See pages 16-18]

•	 We cross checked transit subsidy recipients from January 2003 through December
   2005 against the monthly lists of FEC-paid parking permit holders to ensure
   employees were not inappropriately authorized to participate in both benefit
   programs. Additionally, we contacted current permit holders to identify passengers
   who participated in carpools and examined transit subsidy claiming reports to ensure
   that passengers did not receive transit subsidy while riding in a permit holder’s
   carpool. [See pages 19-20]

•	 Randomly selected 45 transit benefit program applications to determine whether
   applications to participate in the program were properly completed and signed by the
   employee, and approved by the HRO. [See page 22]

•	 Reviewed monthly Finance Office Metrochek reconciliation forms for January 2003
   through December 2005 to assess the monthly balance of Metrocheks on hand and to
   identify any overage or shortage in Metrocheks on-hand after the monthly
   distribution. [See pages 22-23]




                                                                                          9
AUDIT FINDINGS AND RECOMMENDATIONS

Program Policy Needs Improvement

Overall, the FEC’s Employee Transit Benefit Program policy is compliant with Federal
regulations which mandate the implementation of a transit benefit program. However, the
policy directive needs improvement because it does not include provisions for the
management of SmartBenefits. We also found that the FEC does not have written operating
procedures to implement the directive.

When the FEC initially established the Employee Transit Benefit Program in 1992, program
participants received the transit benefit in the form of paper Metrocheks and tokens. Since
then, WMATA has allowed users to move beyond the original paper Metrochek to a
SmarTrip card which is a reusable, rechargeable farecard for use on metrorail, metrobus or in
a registered vanpool. The FEC provides SmarTrip cards as an optional form of transit
subsidy. Employees who choose to use SmarTrip cards are able to download their transit
subsidy at the machines located throughout the Metro system.

Although the FEC has participated in the SmartBenefits program since 2003, we found that
the current employee transit benefit directive has not been adequately updated to provide
guidance regarding management of SmartBenefits or transit benefits assigned via the
SmarTrip card. Specifically, FEC Directive 54 does not provide policies and procedures on
the SmartBenefits’ administration tasks, such as: how to assign monthly benefit amounts,
reassign benefits for misplaced SmarTrip cards or how to remove or suspend former
employees to prevent benefits from being loaded to their account after separating from the
FEC. Additionally, FEC Directive 54 stipulates a cutoff of the 20th day of each month to
apply for the benefit for the following month; however, the actual cutoff is the 15th day of the
month for participants applying for the SmarTrip card benefit. SmartBenefits orders for the
upcoming month are processed on the 16th day of each month by WMATA. Further, we
found that the FEC’s policy does not describe the appropriate method of processing transit
subsidy benefits (SmarTrip) for incoming personnel who start working after the 15th of the
month.

Regarding SmartBenefits, we found that the FEC Directive 54 only briefly states the
following:

       Departing employees who have transferred their fare media amount to a
       SmartCard will return any unspent portion of the issued subsidy to the Finance
       Office in the form of a Metrochek(s) rounded down to the nearest whole
       dollar value.

The policy does not provide any other instruction pertaining to SmartBenefits or the
SmarTrip card. Without guidelines addressing the proper management of SmartBenefits, the
electronic transit subsidies become more susceptible to fraud or mismanagement.



                                                                                             10
Furthermore, we found that the FEC does not have written operating procedures to
effectively implement the Employee Transit Benefit Program policy. FEC Directive 54 is
not a comprehensive procedural document; it does not provide specific information regarding
the tasks required to manage the Employee Transit Benefit Program. For example, FEC
Directive 54 does not include procedures that instruct the program staff on how to verify
employee data or how to compute the amount of monthly subsidy the applicant is entitled to
receive based on the commuting cost calculation. Procedures are needed to ensure
continuous execution of program responsibilities/duties despite changes in personnel
assigned to program offices charged with administering the program. Comprehensive
instructional guidelines need to be developed to assist staff charged with administering the
program and to clarify tasks required to effectively and efficiently manage the program.

Since the FEC’s program policy does not address management of SmartBenefits and program
staff do not have internal operating procedures to implement the policy, program guidance is
lacking in order to effectively manage and monitor the program.

Recommendations

1.     	Program management should revise FEC Directive 54 to include adequate guidelines
       on the management of the SmartBenefits program. Provisions should include the
       delegation of responsibilities and duties required to ensure the accurate electronic
       transmission of monthly transit subsidies to eligible employees.

2. 	   Program management should develop internal operating procedures for program
       offices involved in the management of the program to ensure the process is
       functioning in an efficient manner and is not subject to errors and manipulation.




                                                                                           11
Employees Did Not Comply With Program Policy
FEC Directive 54 requires employees to adjust their monthly subsidy amount when they vary
their monthly commute and do not take public transportation for the majority of the month.
However, our audit results revealed that employees failed to adhere to the program’s policy.
Specifically, 50 employees claimed $2,494 in FEC funds, of which $989 was inappropriately
claimed for periods of extended travel and $1,505 was inappropriately claimed for periods of
extended annual and/or sick leave from January 2003 through December 2005. Additionally,
we identified three ineligible employees who claimed $527 in transit subsidies while on
administrative leave.

The Employee Transit Benefit Program is intended for FEC personnel who commute on a
regular and recurring basis; FEC transit subsidy is to be used for the commute to and from
the official duty station. However, for a variety of reasons, employees may vary their
monthly commute to work. This may occur as a result of annual or sick leave, or official
travel. Program policy states that employees must commute a minimum of 50% of the
available number of commuting days (business days) per month between home and the
official duty station on public transportation to be entitled to their full monthly transit
subsidy. Employees who do not commute a minimum of 50% in a month are only entitled to
50% of their full transit benefit for that month.

It is the employees’ responsibility to designate the adjusted subsidy amount based on their
anticipated use of public transportation. When employees know in advance that they will not
be commuting to the office using public transportation for 50% or more of the business days
in a given month, they are entitled to half of their transit benefit for that month. Conversely,
if after accepting the full amount of transit subsidy for the monthly commute, an employee
does not commute to work for at least 50% of the commuting (business) days because of
unplanned or unscheduled absences, the employee is eligible for 50% of the transit benefit
the following month.

We found that employees did not always correctly adjust the amount of transit subsidy
claimed for months when they commuted less than 50% of the available business days in a
given month. In fact, the OIG’s review of travel and leave records identified employees who
were on extended periods of absence from the FEC, but collected their full monthly benefit,
inaccurately adjusted their subsidy amount or did not adjust their benefit in the following
month.


                                                                                             12
Program Participants on Extended Travel
In the OIG sample of 59 business trips taken between January 2003 and December 2005, we
identified 50 vouchers/records that documented travel of employees who were not entitled to
the full monthly benefit due to their extended absence from work. The remaining 9 travel
vouchers/records documented trips taken by employees who did not participate in the transit
benefit program or remained eligible for their full transit benefit despite the business trips.
After examining the applicable transit subsidy claiming reports, we found that for 21 of the
50 business trips, the employees were not compliant with the transit subsidy program
requirements while on extended travel. Specifically, the employees inappropriately claimed
$989 in transit benefits of which they were not entitled to due to their absence from the FEC.

Program Participants on Extended Leave
To evaluate whether employees adjusted their monthly subsidies given actual leave usage,
we reviewed Annual Attendance Records for calendar years 2003-2005 for a sample selected
from the total FEC population. The OIG selected the FEC’s Office of General Counsel for
review, an office comprised of approximately 30 percent of the total FEC staff. Based on the
leave records, the OIG calculated the amount the employees were entitled to and then
examined transit subsidy claiming reports.

We found that during the review period, January 2003 through December 2005, 73 program
participants of the selected sample of FEC employees did not commute to the office for 50%
or more of the business days in a calendar month. Accordingly, these 73 program
participants were only entitled to 50% of their full transit benefit for that month. However,
we identified 29 of the 73 sample employees who collected their full monthly transit benefit
for the period of extended leave from the FEC, did not adjust their benefit in the following
month, or inaccurately adjusted their subsidy amount. In fact, we calculated that those 29
participants claimed $1,505 in transit benefits of which they were not eligible to receive.

In summary, results from our testing of extended travel and leave revealed that a combined
total of 50 employees did not comply with program policy and inappropriately claimed a
total of $2,494 in transit subsidies. According to FEC Directive 54, employees are
responsible for monitoring their use of the transit benefit under the program policy. These 50
employees did not adjust their subsidy amount based on their actual commute to work,
considering extended leave and/or travel. FEC employees must commute to the office using
public transportation for 50% or more of the business days in a month to be entitled to their
full transit benefit for that month. When a change in commuting pattern results in the
employee commuting less than 50% of the business days in a month, the employee is entitled
to only 50% of their monthly transit benefit.

Program policies and procedures should be developed to provide participants with specific
program instruction regarding adjustments to their transit subsidy. Specifically, SmarTrip
users should be provided with proper guidelines for adjusting the amount of transit subsidy
claimed at the kiosks located throughout the WMATA system. A statement should also be


                                                                                              13
included with the monthly transit subsidy distribution reminder that specifically instructs
participants to make adjustments based on extended absences from the FEC. Also, transit
benefit program applications should require a supervisory approval to provide managers the
opportunity to advise their employees, as needed, on program requirements.

Ineligible Employees Who Claimed Transit Subsidy While on
Administrative Leave

While reviewing employee compliance with FEC policy during periods of extended annual
and sick leave, the OIG identified three ineligible employees who claimed transit subsidy
while on administrative leave for various reasons during 2004, 2005 and 2006.
Although the program is intended for FEC personnel who commute on a regular and
recurring basis, the OIG discovered one former employee who was placed on administrative
leave in September 2004, but retained $29 in unused subsidy from September and then
claimed $65 in transit subsidy for the month of October 2004. In fact, in January 2005, the
HRO concluded that due to the administrative leave, the employee was not entitled to the
benefits. However, the HRO failed to suspend the benefits and the employee continued to
claim an additional $260 in benefits while on administrative leave in February, May, June,
and July of 2005. Another employee was placed on administrative leave in August 2005, but
retained $30 in unused subsidy for August and claimed $60 in transit benefits for the month
of September 2005. The third employee who was placed on administrative leave in October
2005 claimed $83 while on leave before finally separating in February 2006.

Due to the administrative leave status, the three employees did not commute on public
transportation on a regular basis, and inappropriately received $527 in transit benefits. The
OIG recognizes that administrative leave can occur unexpectedly and due to unforeseen
reasons. However, the intent of the program is for employees commuting on a regular basis
to work using public transportation. Based on our testing, it is apparent that internal controls
are lacking to address employees placed on administrative leave and their ineligibility for the
transit benefit program.

Consistent with the policy directive, the OIG believes that generally, employees should not
be able to use transit benefits after being placed on administrative leave. Management
should review the current program policy, and then develop and implement procedures that
include restrictions for employees on administrative leave. The OIG also suggests the HRO
implement an administrative leave clearance process, similar to the process completed for
separated employees. The administrative leave clearance process would alert the appropriate
FEC offices to ensure all necessary obligations are suspended until the employee returns to
work or other determinations are made. Further, the OIG suggests the form or other process
include a notification to transit participants that their participation in the program has been
suspended, pending resolution of the matter that necessitated administrative leave.




                                                                                              14
Recommendations

3. 	   Program management should ensure that program participants who are absent for an
       extended period, especially those who frequently go on official business travel for the
       FEC, are made aware of their responsibility to adjust their transit subsidy benefits
       when absent from their normal duty station for 50% or more business days in a
       calendar month. For example, the Finance Office should include a statement in their
       monthly distribution reminder that specifically instructs participants to make
       adjustments based on extended absences from the FEC.

4. 	   HRO should develop clear program policies and procedures to provide participants
       with specific instructions on how adjustments should be made for those who receive
       their transit subsidy electronically via the SmarTrip card.

5. 	   Program management should require supervisory review/signature of the employees’
       transit benefit program applications. An awareness that an employee participates in
       the transit program will allow the supervisor to advise their employees, as needed, on
       the requirements of the program, such as instances in which participants commute
       less than 50% of the business days in a month.

6. 	   Program management should ensure that the program offices’ staff are properly
       trained on the guidelines and procedures regarding transit subsidy adjustments
       required when participants are on extended absence from the office. Properly trained
       program staff can provide accurate information to employees who contact HRO for
       advisement regarding program requirements.

7. 	   Program management should develop and implement procedures that include transit
       benefit restrictions for employees on administrative leave.

8. 	   HRO should implement an administrative leave clearance process, similar to the
       process completed for separated employees. The clearance form or other process
       should include a notification to transit participants that their participation in the
       program has been suspended, pending resolution of the matter that necessitated
       administrative leave.




                                                                                               15
Program’s Internal Controls Need To Be Strengthened

We found that employees separating from the agency did not return unused transit subsidy,
remained listed as eligible recipients after leaving the agency, and were allowed to retain
their FEC assigned SmarTrip card thereby providing access to $30,935 in FEC paid transit
subsidy (up to $105 per employee, per month). As a result, former employees
inappropriately retained and claimed $4,073 (rounded to the nearest dollar) in transit benefits.
We also found that program policy was not always followed.

Participants Separating From the Agency Did Not Return Unused Transit
Subsidy

FEC policy states that it is not permissible for departing employees to use transit benefits
provided by the FEC after their final date of employment at the FEC.

Employees leaving the organization must complete a check-out process; the check-out
process includes the return of unused transit subsidy benefits. An FEC Employee Clearance
Form, used during the check-out process, provides for the recording of unused Metrocheks.
A copy of the form can be found in Appendix 2. The program directive states that the
Finance Office manages the receipt of unused transit benefits from departing employees.
The OIG found that the clearance forms seldom included the collection of unused transit
benefits.

FEC policy also requires the maintenance of a log that captures the receipt of unused transit
subsidy (Metrocheks) returned during the employee clearance process by departing
employees. Based on our review, the OIG found that the Finance Office had not updated the
returned transit subsidy log since August 2003; the transit subsidy log did not record receipt
of unused transit subsidy returned in 2004, 2005 or 2006.

The OIG’s audit testing revealed that employees who departed the FEC between January 1,
2005 and July 22, 2006 returned only $118 of the $1,113 we calculated to be unused based
on the separation dates of the employees. Furthermore, the FEC should have collected
$1,190 from separating employees during calendar years 2003 and 2004. The employee
clearance forms for those employees who departed in 2003 and 2004 were not readily
available during the audit testing. Based on discussions with the Finance Office, and a
review of the unused subsidy log, we concluded the FEC did not receive the entire $1,190 in
unused transit subsidy from the former employees. In fact, the returned subsidy log recorded
receipt of only $84 and had not been updated since August 2003. Hence, employees who
separated from January 2003 through July 2006 retained $2,101 in unused transit subsidies
that should have been collected during the clearance process.

Allowing employees separating from the agency to retain FEC paid transit subsidies is not
permissible under the provisions of FEC Directive 54. Once eligibility is terminated, all
unused or partially used Metrocheks are to be returned to the Finance Office. The returned
unused transit subsidy should be available to accommodate the current staff’s local travel


                                                                                               16
needs. To assist program staff when computing the amount of unused subsidy that should be
returned on the last day of employment, the Finance Office suggested that the current
employee clearance form is revised to accommodate the unused transit subsidy calculation.

Recommendations

9. 	    The Finance Office should ensure the employee separation clearance process includes
        the computation and collection of unused transit subsidy from departing employees.
        Clearance forms should be revised to accommodate the unused transit subsidy
        calculation.

10. 	   The Finance Office’s monthly notification distribution e-mail should include a
        reminder that participants are required to return any unused transit subsidy during the
        employee clearance process.

11. 	   The Finance Office should develop internal procedures that describe how to calculate
        and record the amount of unused transit subsidy a departing employee must return
        during the employee separation process.

12. 	   The Finance Office should ensure proper training of staff responsible for the office’s
        employee separation clearance process. Staff should be familiar with unused transit
        subsidy requirements and the procedures used to calculate the correct amount of
        transit subsidy that should be returned by departing employees.

13. 	   The Finance Office should develop and maintain a record or log that captures the
        receipt of unused transit subsidy returned during the employee separation process by
        departing employees. The log should include the departing employee’s name, date of
        departure, computation of unused transit subsidy, actual amount received from
        departing employee and signature of Finance staff who received the subsidy. The log
        should also include disbursement of Metrocheks to employees for local travel,
        thereby providing an audit trail of transit subsidy returned and disbursed.

14. 	   The Finance Office should ensure that all FEC employees are made aware of unused
        transit subsidy available for official local travel. This will ensure economic use of
        program funds.

15. 	   The Finance Office should contact WMATA to research exchange opportunities
        available for disposition of unused Metrochek cards to ensure efficient use of returned
        transit subsidy.

Former Participants Listed as Eligible Recipients

Based on our review of FEC separated employees from January 2003 to July 22, 2006, the
OIG found that 83 former employees had not been removed from the monthly transit subsidy
claiming reports in a timely manner (the month following their last day of employment).
Since the former employees had not been removed in a timely manner, 60 former employees


                                                                                             17
who received their transit benefits electronically on a SmarTrip card had access and could
have claimed $30,935 in FEC paid transit benefits after separating from the FEC (a
maximum of $105 per employee, per month). In fact, one former employee actually
contacted their previous supervisor in April 2006 at the FEC to explain that he was still
receiving FEC paid transit benefits monthly on his SmarTrip card after separating from the
FEC.

As a result of the HRO neglecting to suspend or remove non-eligible individuals from the
FEC’s SmartBenefits account, we identified $1,972 in transit benefits inappropriately
claimed by nine former employees after separating from the agency.

It is important that HRO promptly suspend or remove non-eligible individuals from the
program, especially since the FEC allows individuals to keep the SmarTrip card registered to
receive FEC paid transit subsidy after they leave the program. However, there are certain
timing constraints using the WMATA web-based SmartBenefits program to suspend or
remove former participants’ SmarTrip benefits. Suspension of unclaimed benefits for the
employee’s last month of employment can occur anytime during the month. However,
suspension of unclaimed benefits for future months must be processed by the HRO on the
28th of the month, or up until the 15th day of the following month. Likewise, removal of
participants for future months must be processed on the 28th of the month, or up until the 15th
day of the following

Therefore, employees who separate from the FEC on or before the 15th of the month should
be promptly removed from the SmartBenefits account by the 15th of the month. This will
prevent the separated employee from receiving any unclaimed benefit in the current month
and also prevent FEC paid benefits for upcoming months from being loaded on the SmarTrip
card. For participants who separate after the 15th of the month, the HRO should promptly
suspend the FEC SmarTrip benefits at the time of separation; this action does not suspend the
SmarTrip card but merely prevents a separated employee from loading unclaimed FEC
benefits onto their SmarTrip card during the current month. In addition, employees
separating after the 15th of the month should be removed by the HRO starting on the 28th of
the month to prevent benefits for the following month.

The current program policy does not address proper management of SmartBenefits.
Procedures must be established and implemented so that transit benefits are not transferred to
the SmarTrip cards of separated employees. HRO management should also ensure that all
program staff receives proper training on the procedures for managing the FEC’s
SmartBenefits account.

To conclude, due to weak program controls, our testing found that former employees
inappropriately collected a total of $4,073 in transit benefits; this total represents $2,101 of
unused transit benefits retained by employees separating from the agency and $1,972 of
transit subsidy claimed by SmarTrip users after leaving the FEC.




                                                                                                   18
Recommendations

16. 	   HRO should ensure the SmarTrip cards registered to receive FEC paid transit subsidy
        of separated employees are promptly suspended or removed. Further, HRO should
        develop and implement written procedures to prevent benefits from being transferred
        to the SmarTrip cards of separated employees.

17. 	   Program management should consider letters of remittance to those former employees
        to request repayment of transit benefits collected after their last day of employment.

18. 	   HRO management should also ensure that all program staff receives proper training
        on the procedures for managing the FEC’s SmartBenefits account.

Program Staff Did Not Always Follow the Provisions of FEC
Directive 54

While conducting interviews with program staff and performing other tests, the OIG found
that program staff did not always follow the provisions of FEC Directive 54. Employees
who commute in a private FEC carpool or who receive a Federal parking benefit may not
participate in the transit benefit program. FEC Directive 54 requires that a current list of
employees, who have been issued FEC subsidized parking permits, including passengers who
commute with the parking permit holders, is maintained and then compared to the Transit
Subsidy Eligibility List to ensure that ineligible employees are not on the transit subsidy list.
We found that the Administrative Division did not include the names of FEC carpool
passengers, as required by FEC Directive 54, on the monthly listing of parking permit
holders. Further, despite the prior program violations in 2000 regarding three employees
who regularly participated in an FEC carpool and received transit subsidy, the HRO could
not provide any evidence to support that the required comparison of the monthly list of
parking permit holders to the Transit Subsidy Eligibility List was completed.

Considering this, we compared the lists of transit subsidy recipients for January 2003 through
December 2005 against the monthly lists of FEC-paid permit holders and discovered that a
former Commissioner and two HRO employees had been issued a parking permit and also
received a transit subsidy for several months during the period reviewed. In fact, the two
HRO employees worked in one of the program offices responsible for administering the
Employee Transit Benefit Program.

Apparently, exceptions were made to the FEC’s policy regarding FEC parking permits and
the Employee Transit Benefit Program through verbal agreements with management to
accommodate the two HRO employees working during the weekends. Management should
have established controls to prevent the employees from utilizing the parking permit during
the week, considering the pass was specifically for Saturdays, Sundays and holidays, and not
during regular work days. In the case of the former Commissioner, who received a paid FEC
parking permit and was also a transit subsidy participant, HRO could not provide any
explanation or documentation to support why the former Commissioner was permitted to
participate in both programs. Although we found that these three individuals were issued


                                                                                              19
parking passes and at the same time were recipients of the transit benefit, no evidence of
abuse was found.

The OIG believes that any authorized exceptions to FEC policy should be documented to
avoid the appearance of inappropriate use of FEC funds by staff.

The FEC parking garage contains both FEC paid and employee paid parking spaces.
Generally, senior level staff receive an FEC paid parking space. The OIG believes the
Administrative Division should maintain a list of all FEC parking permit holders (FEC paid
and employee paid), and their passengers.

Passengers Who Commute With Parking Permit Holders Not Included on
Monthly Listing of Subsidized Parking Program Participants

During the audit, we contacted current FEC paid parking permit holders to identify any
passengers who commuted as riders in their carpool. One permit holder provided the names
of three employees who rode with him to work on a regular basis from January 2003 through
December 2005. However, the three employees were not identified as passengers on the
monthly permit holder lists provided by the Administrative Office, as required by the transit
benefit directive. Moreover, one of the employees identified by the permit holder may have
been a passenger in the carpool while receiving transit subsidy. Employees who commute in
a private carpool or who receive a Federal parking benefit may not participate in the transit
benefit program. The participant’s alleged misuse of benefits issued under the FEC’s Transit
Benefit Program has been referred for further review within the FEC OIG.

Based on the prior program violations in 2000 related to FEC carpool members receiving the
transit subsidy, and the alleged inappropriate use of the transit subsidy program by yet
another passenger who commuted with a permit holder, it appears that control procedures
need to be strengthened. HRO has not closely monitored the parking permit list against the
transit subsidy list in the past. However, HRO plans to coordinate with the Administrative
Office to ensure that employees participating in the paid parking program are not receiving a
transit subsidy. The Administrative Office also plans to ensure that employees who request
paid parking permits are aware that they cannot participate in both programs.

The FEC’s policy attempted to establish an internal control with the monthly comparison of
the list of FEC paid parking permit holders with the Transit Subsidy Eligibility List to
prevent employees from participating in both benefit programs. However, (1) the
Administrative Division neglected to determine if FEC parking permit holders operated an
FEC carpool thereby providing a parking benefit to other FEC employees; (2) permit holders
were not made aware of their responsibility to inform the Administrative Division when
other employees ride in their car/vanpool; and (3) HRO did not compare the list of parking
permit holders and their passengers (if known) to the Transit Subsidy Eligibility List to
ensure that ineligible employees are not on the transit subsidy list.

Each FEC paid parking permit holder should be required to sign a certification statement that
clarifies the permit holders' understanding of the responsibilities as well as documents their


                                                                                             20
acknowledgement of program requirements. Permit holders should also be made aware that
they are required to inform management as changes occur in their commuting arrangements
(i.e. new riders start or stop commuting with the permit holder). The monthly list of permit
holders and their passengers should be provided to HRO for reconciliation with the Transit
Subsidy Eligibility List in a timely manner.

Recommendations

19. 	   Program management should revise the current policy to ensure that employees are
        not receiving FEC paid transit subsidy while riding as passengers in non-FEC paid or
        private carpools.

20. 	   The Administrative Division should maintain a current list of employees who
        commute in an FEC private carpool or have been issued FEC subsidized parking
        permits, including passengers who commute with the parking permit holders in their
        car/vanpool. Permit holders, both FEC subsidized and unsubsidized, should also be
        made fully aware of their responsibility to report the names of any regular passengers
        and any changes to the Administrative Division.

21. 	   HRO should fully implement program policy that requires the comparison of parking
        permit holders and their passengers to the Transit Subsidy Eligibility List to ensure
        that ineligible employees are not on the transit subsidy list.




                                                                                            21
Other Matters to be Reported

SmarTrip Card Numbers Not Properly Maintained
In the OIG sample of 45 program participants, we found only one application that had not
been approved by the Director of Personnel due to management oversight. However, we
discovered that SmarTrip card serial numbers assigned on the 45 sampled participants’
approved applications did not always match the SmarTrip card serial number maintained in
the database. In fact, during the audit, HRO discovered three SmarTrip cards of which the
FEC has no record of who the card belongs to. The three SmarTrip cards had been allotted
transit benefits which were electronically transferred to the cards monthly.

To ensure that only eligible participants receive electronically transferred transit benefits,
program staff must maintain accurate records to identify the names of SmarTrip card holders.
The SmarTrip card numbers on the applications should reflect the card number that is
currently assigned transit benefits on a monthly basis. If a new SmarTrip card is assigned to
the employee, then the original application should be updated to reflect the new card number
or the applicant should complete a new application to record the newly assigned SmarTrip
number. During the audit, HRO agreed to consider changes for keeping a record of
participants’ names and SmarTrip card numbers.

Monthly Balance of Metrocheks On-Hand Should Be Reduced
The FEC OIG assessed the monthly balance of Metrocheks on-hand for distribution to
program participants. Metrochek usage by program participants declined as a result of the
introduction of the SmarTrip card in October 2003. However, the Finance Office did not
reassess the amount of Metrocheks maintained on-hand for monthly distribution after the
introduction of the SmarTrip card. We found that from September 2003 through December
2005, the Finance Office only distributed 63% to 68% of the monthly balance of Metrocheks
on-hand. However, before the SmarTrip cards were made available as a form of transit
subsidy, the Finance Office distributed 76% of the monthly balance of Metrocheks on-hand.
Maintaining a higher monthly balance of Metrocheks on-hand increases the possibility of
loss or misuse. The FEC OIG recommends that the Finance reassess the monthly amount of
stock on-hand for distribution to deter the possibility of loss or misuse and to reduce the
number of Metrocheks included in the monthly subsidy count remaining after distribution.
At least annually, the Finance Office should evaluate Metrochek orders based on prior usage,
stock on hand, and estimated usage of stock.

Furthermore, program policy states that the Finance Office is responsible for maintaining
information on the distribution of Metrocheks. Accordingly, any differences found during
the monthly reconciliation of Metrocheks purchased and disbursed must be recorded and
resolved by the Finance Office. Yet we identified minor shortages noted during the 2003
monthly media subsidy counts of Metrocheks on hand after distribution, but management did
not provide any documentation to explain what actions were taken to identify the cause of the




                                                                                           22
shortages. During the audit, the Finance Office agreed that actions to resolve such variances
should be documented.

FEC Should Encourage Increased Usage of the SmarTrip Card

The FEC should encourage increased usage of the SmarTrip cards. Use of the SmarTrip card
benefits the employee by saving time spent visiting the Finance Office to receive the benefit,
provides the employee a way to recoup losses if the card is lost or stolen and gives the
employee the ability to consolidate all transit benefit funding in one place, including adding
money of their own, up to the cards’ maximum funds capacity. Further, unlike paper
Metrocheks which are issued in $5, $10, or $20 increments, SmarTrip cards allow the FEC to
electronically distribute the exact dollar amount of approved transit subsidy to employees.
From our sample of 45 program participants, we identified nine Metrochek recipients who
could receive their monthly subsidy electronically since they utilize transit carriers that
accept SmarTrip cards as a form of payment. The OIG believes that encouraging the use of
SmarTrip cards will provide valuable benefits to employees, decrease program costs
associated with the manual distribution of Metrocheks and allow the FEC to avoid
overpayment of the transit benefit.

Recommendations

22. 	   HRO should maintain accurate program records; the original application should be
        updated to reflect changes in SmarTrip card numbers or the applicant should
        complete a new application to record the newly assigned SmarTrip number.

23. 	   The Finance Office should regularly reassess the monthly amount of Metrochek stock
        on-hand for distribution. The Finance Office should annually evaluate Metrochek
        orders based on prior usage, stock on hand, and estimated usage of stock.

24. 	   The Finance Office should continue to document any shortages and overages in the
        monthly subsidy count, but also include management actions to identify the cause of
        the differences in Metrocheks maintained on hand and what actions were taken, if
        any, to prevent future shortages and overages.

25. 	   Program management should encourage Metrochek recipients who utilize transit
        carriers that accept SmarTrip cards to switch their monthly subsidy to SmarTrip
        cards.




                                                                                           23
                                CONCLUSIONS 

Although the Employee Transit Benefit Program is compliant with Federal regulations, the
program’s policy directive needs to be revised and internal controls strengthened. Without
proper guidelines addressing management of SmartBenefits, the electronic transit subsidies
become more susceptible to fraud or mismanagement. Furthermore, we found that
employees did not always comply with program requirements. For example, employees
within our sample who were on extended periods of absence from the FEC, inappropriately
collected their full monthly benefit, inaccurately adjusted their subsidy amount or did not
adjust their benefit in the following month in cases of unplanned absences. Therefore, our
audit work substantiated the 2005 OIG hotline allegation and enabled the OIG to provide
recommendations for improvement. In addition, program controls over the return of
unused subsidy, removal of former employees from the program as well as the consistent
maintenance of the FEC’s SmartBenefits account must be strengthened to deter future
abuse of program funds.




                   MANAGEMENT’S COMMENTS 

FEC management was provided a draft copy of the audit report for review and comment.
Management generally agreed with the audit findings and recommendations and plans to
implement corrective action to address the weaknesses noted during the audit. In accordance
with Commission Directive 50, Audit Follow-Up, April 20, 2006, the Staff Director shall
recommend an audit follow-up official for this audit. The audit follow-up official shall
develop a written corrective plan within thirty days of receiving the audit report. The
corrective action plan shall be provided to the Commission and include the specific steps
and/or tasks to be taken and a projected time frame of completion.




                                                                                          24
                                                                                                   Appendix 1

                              FEC Transit Subsidy Program Application

Certification: I hereby certify that I am employed by the FEC and commute on a regular and
recurring basis, using public transportation and do not commute by means of a private commuter
vanpool or carpool, or hold an FEC motor vehicle parking permit or utilize a car or vanpool issued an
FEC parking permit. I therefore certify that I am eligible for a fare subsidy for use on participating
public transportation systems, am obtaining it for my personal use, and will not transfer it to anyone
else. I further understand that failure to comply with program requirements can result in disciplinary
action, up to and including removal. I have received a copy of Commission Directive No. 54, dated
8/15/01. The making of a false, fictitious or fraudulent certification may render the maker subject to
criminal prosecution under Title 18, USC, Section 1001, Civil Penalty Action, providing for
administrative recoveries of up to $10,000 per violation.

SmarTrip Card User Certification: I understand that by uploading the monthly transit subsidy amount
to my SmarTrip card at a Metro “Passes/Farecard” machine, I am certifying that I will use the transit
subsidy solely for my commute to and from the Federal Election Commission and that I do not
commute by means of a private commuter vanpool or carpool, or hold an FEC motor vehicle parking
permit or utilize a car or vanpool issued FEC parking permit.
Signature	                                                                      Date

------------------------------------------------------------------------------------------------
    1.       Short Description of My Commute:

∗∗ Example: 	 (I ride the orange line from Vienna to Metro Center to and from work for
              a total cost of $7.50 round trip per day. )




    2.       Complete the calculation table on the reverse of this form.

    3.       Employee Information:
    Employee Name: __________________________________________

    Home Address:          ___________________________________________
                           ___________________________________________
                           ___________________________________________
    Division:              _________________________________________




                                                                                                          25
                    Commuting Cost Calculations for Transit Subsidy
(Use Appropriate Daily and/or Monthly Costs to Depict your costs per month. Do not
include parking costs.)

Mode of              Daily Costs           X 20 working    = Monthly Costs
Transportation       (round trip)          days (part time
                                           schedule may be
                                           less than 20
                                           work days)
Metro subway         $                     Times 20 work days    $

Metro Bus            $                     Times 20 work days    $


Mode of Transportation                                           = Monthly Costs

Rail (VRE or MARC)                                               $

Other Bus (Example: PW Commute ride                              $

Van Pool                                                         $


                                           Total Monthly Cost: Add all
                                           applicable monthly costs listed above.

                                           $


∗∗NOTE: PARKING CANNOT BE INCLUDED IN YOUR TOTAL MONTHLY COST
        CALCULATION!!!!

       4. Personnel Office Use Only

   SmarTrip Card No.________________________

   Eligible: YES      NO   ____________________ 

                           Director of Personnel        

   Total Cost: $_________________ 


   Transit Subsidy Amount: $___________________




                                                                                     26
                                                                   Appendix 2


                    FEC EMPLOYEE CLEARANCE FORM
 Name (Last, First, 

 MI)


A. SUPERVISORY CLEARANCE                               DATE   SIGNATURE

1. Files/Manuals/Reference Materials
2. Documents & Related Materials
3. Keys (Desk, Files, Office)

B. FINANCE OFFICE (Room 820)                           DATE   SIGNATURE

1. Travel Advances
2. Moving Expense Allowances
3. Travel Vouchers
4. Metro Fare Media/SmarTrip Card

C. ADMINISTRATIVE OFFICE (Room 819)                    DATE   SIGNATURE

1. Parking Permit
2. Credentials
3. Kastle Key
4. Government Credit Card
5. Cellular Phone/Pager
6. Sprint Calling Card

D. LIBRARY (Room 801)                                  DATE   SIGNATURE

1. Materials Returned
2. Computer Access ID

E. PROGRAM MANAGEMENT BRANCH
(Room 506)                                             DATE   SIGNATURE

1. Personal Computer Password/Access Code
2. Laptop Computer

F. HR & LR OFFICE (Room 500)                           DATE   SIGNATURE

1. Obligated Service (Training, Relocation Expenses)
2. Overdrawn Leave
3. FEC’s ID Card




                                                                          27

G. FORWARDING ADDRESS (This will be used to forward all payroll related information,
   e.g., W-2s, Last SF-50, Last Statement of Leave & Earnings.)



In compliance with the Privacy Act of 1974, the following information is provided: solicitation of this
information is authorized by the Federal Property Administrative Service Act of 1949, as amended
(63 Stat 377) 1 Part III, Title 5, USC, and EO 11652. Purpose is to ensure that you have satisfied all
obligations to the government prior to your transfer or separation from FEC. This information may
be transferred to appropriate government agencies, when relevant to civil, criminal or regulatory
investigations or prosecutions. Disclosure by you is mandatory. Failure to provide requested
information will prevent the processing of your final check, lump-sum leave payment, and retirement
refund or retirement application.

Employee’s statement—I hereby make the following statements in connection with my separation
from FEC. I am returning and have surrendered to the responsible FEC official, all government
property, official documents and materials with which I was charged, for which I was accountable, or
which I had in my possession. I (have) (do not have) an unsatisfied period of obligated service for
either moving expenses allowances or non-government training received while employed by FEC. I
am aware that willful disclosure of confidential or restricted information to any unauthorized person
or persons may be punishable by a fine or imprisonment under 2 U.S.C. subsection 437g(a)(12)(b) or
other Federal statute. Therefore, I certify that I shall not communicate or transmit such information
orally or in writing to any unauthorized person or agency. I further agree that my leave status (shown
below) is accurate.

As of _______date ________annual _____sick ____(none) (Advanced Leave should be indicated
by negative numerals).

Title 18, United States Code, Section 1001, makes it a criminal offense, punishable by a maximum of
five year imprisonment, $10,000 fine or both, knowingly and willfully to make a false statement or
representation to any department or agency of the United States, as to any matter within the
jurisdiction of any department or agency of the United States.

Employee signature:

Date:

All items listed on the reverse are necessary for the clearance of this employee. Clearance is
approved for all items checked in section in section A through E, provided all appropriate authorized
officials cleared each item.

Human Rescources Director:

Date:


Original-----Finance
Copy---------HR
Copy---------Employee
Copy---------FEC Administrative Office



                                                                                                    28
                                                                                                       Appendix 3

                      Summary of Audit Findings and Recommendations
Recommendation No.                  Finding                                           Recommendation
        1            Program Policy Needs Improvement          Program management should revise FEC Directive 54 to
                                                               include adequate guidelines on the management of the Smart
                                                               Benefits program. Provisions should include the delegation of
                                                               responsibilities and duties required to ensure the accurate
                                                               electronic transmission of monthly transit subsidies to eligible
                                                               employees.
        2            Program Policy Needs Improvement          Program management should develop internal operating
                                                               procedures for program offices involved in the management of
                                                               the program to ensure the process is functioning in an efficient
                                                               manner and is not subject to errors and manipulation.
        3            Employees Did Not Comply With             Program management should ensure that program participants
                     Program Policy                            who are absent for an extended period, especially those who
                                                               frequently go on official business travel for the FEC, are made
                                                               aware of their responsibility to adjust their transit subsidy
                                                               benefits when absent from their normal duty station for 50% or
                                                               more business days in a calendar month.
        4            Employees Did Not Comply With             HRO should develop clear program policies and procedures to
                     Program Policy                            provide participants with specific instructions on how
                                                               adjustments should be made for those who receive their transit
                                                               subsidy electronically via the SmarTrip card.
        5            Employees Did Not Comply With             Program management should require supervisory
                     Program Policy                            review/signature of the employees’ transit benefit program
                                                               applications.
        6            Employees Did Not Comply With             Program management should ensure that the program offices’
                     Program Policy                            staff are properly trained on the guidelines and procedures
                                                               regarding transit subsidy adjustments required when
                                                               participants are on extended absence from the office.
        7            Employees Did Not Comply With             Program management should develop and implement
                     Program Policy                            procedures that include transit benefit restrictions for employees
                                                               on administrative leave.
        8            Employees Did Not Comply With             HRO should implement an administrative leave clearance
                     Program Policy                            process, similar to the process completed for separated
                                                               employees. The clearance form or other process should include
                                                               a notification to transit participants that their participation in the
                                                               program has been suspended, pending resolution of the matter
                                                               that necessitated administrative leave.
        9            Participants Separating From the Agency   The Finance Office should ensure the employee separation
                     Did Not Return Unused Transit Subsidy     clearance process includes the computation and collection of
                                                               unused transit subsidy from departing employees. Clearance
                                                               forms should be revised to accommodate the unused transit
                                                               subsidy calculation.
        10           Participants Separating From the Agency   The Finance Office’s monthly notification distribution e-mail
                     Did Not Return Unused Transit Subsidy     should include a reminder that participants are required to return
                                                               any unused transit subsidy during the employee clearance
                                                               process.
        11           Participants Separating From the Agency   The Finance Office should develop internal procedures that
                     Did Not Return Unused Transit Subsidy     describe how to calculate and record the amount of unused
                                                               transit subsidy a departing employee must return during the
                                                               employee separation process.
        12           Participants Separating From the Agency   The Finance Office should ensure proper training of staff
                     Did Not Return Unused Transit Subsidy     responsible for the office’s employee separation clearance
                                                               process.




                                                                                                                  29

                      Summary of Audit Findings and Recommendations
Recommendation No.                   Finding                                        Recommendation
        13           Participants Separating From the Agency   The Finance Office should develop and maintain a record or log
                     Did Not Return Unused Transit Subsidy     that captures the receipt of unused transit subsidy returned
                                                               during the employee separation process by departing
                                                               employees. The log should include the departing employee’s
                                                               name, date of departure, computation of unused transit subsidy,
                                                               actual amount received from departing employee and signature
                                                               of Finance staff who received the subsidy. The log should also
                                                               include disbursement of Metrocheks to employees for local
                                                               travel, thereby providing an audit trail of transit subsidy
                                                               returned and disbursed.
        14           Participants Separating From the Agency   The Finance Office should ensure that all FEC employees are
                     Did Not Return Unused Transit Subsidy     made aware of unused transit subsidy available for official local
                                                               travel.
        15           Participants Separating From the Agency   The Finance Office should contact WMATA to research
                     Did Not Return Unused Transit Subsidy     exchange opportunities available for disposition of unused
                                                               Metrochek cards to ensure efficient use of returned transit
                                                               subsidy.
        16           Former Participants Listed as Eligible    HRO should ensure the SmarTrip cards registered to receive
                     Recipients                                FEC paid transit subsidy of separated employees are promptly
                                                               suspended or removed. Further, HRO should develop and
                                                               implement written procedures to prevent benefits from being
                                                               transferred to the SmarTrip cards of separated employees.
        17           Former Participants Listed as Eligible    Program management should consider letters of remittance to
                     Recipients                                those former employees to request repayment of transit benefits
                                                               collected after their last day of employment.
        18           Former Participants Listed as Eligible    HRO management should also ensure that all program staff
                     Recipients                                receives proper training on the procedures for managing the
                                                               FEC’s SmartBenefits account.
        19           Program Staff Did Not Always Follow       Program management should revise the current policy to ensure
                     the Provisions of FEC                     that employees are not receiving FEC paid transit subsidy while
                     Directive 54                              riding as passengers in non-FEC paid or private carpools.
        20           Passengers Who Commute With Parking       The Administrative Division should maintain a current list of
                     Permit Holders Not Included on Monthly    employees who commute in an FEC private carpool or have
                     Listing of Subsidized Parking Program     been issued FEC subsidized parking permits, including
                     Participants                              passengers who commute with the parking permit holders in
                                                               their car/vanpool. Permit holders, both FEC subsidized and
                                                               unsubsidized should also be made fully aware of their
                                                               responsibility to report the names of any regular passengers and
                                                               any changes to the Administrative Division.
        21           Passengers Who Commute With Parking       HRO should fully implement program policy that requires the
                     Permit Holders Not Included on Monthly    comparison of parking permit holders and their passengers to
                     Listing of Subsidized Parking Program     the Transit Subsidy Eligibility List to ensure that ineligible
                     Participants                              employees are not on the transit subsidy list.
        22           SmarTrip Card Numbers Not Properly        HRO should maintain accurate program records; the original
                     Maintained                                application should be updated to reflect changes in SmarTrip
                                                               card numbers or the applicant should complete a new
                                                               application to record the newly assigned SmarTrip number.
        23           Monthly Balance of Metrocheks On-         The Finance Office should regularly reassess the monthly
                     Hand Should Be Reduced                    amount of Metrochek stock on-hand for distribution.
        24           Monthly Balance of Metrocheks On-         The Finance Office should continue to document any shortages
                     Hand Should Be Reduced                    and overages in the monthly subsidy count, but also include
                                                               management actions to identify the cause of the differences in
                                                               Metrocheks maintained on hand and what actions were taken, if
                                                               any, to prevent future shortages and overages.
        25           FEC Should Encourage Increased Usage      Program management should encourage Metrochek recipients
                     of the SmarTrip Card                      who utilize transit carriers that accept SmarTrip cards to switch
                                                               their monthly subsidy to SmarTrip cards.




                                                                                                               30

